                   PUBLIC/PRIVATE COMPETITION AT
                     LACKLAND AIR FORCE BASE


Report No. D-2001-118                                              May 14, 2001

This special version of the report has been revised to omit source selection and
contractor information that may be company confidential or proprietary.



                 Office of the Inspector General
                     Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms and Abbreviations
AETC                  Air Education and Training Command
AFB                   Air Force Base
FTE                   Full-Time Equivalent
L21                   Lackland 21st Century Services Consolidated
MEO                   Most Efficient Organization
OMB                   Office of Management and Budget
PRD                   Performance Requirements Document
SAIC                  Science Applications International Corporation
                       Office of the Inspector General, DoD
Report No. D-2001-118                                                       May 14, 2001
   (Project No. D2001CH-0064)

          Public/Private Competition at Lackland Air Force Base

                                 Executive Summary

Introduction. This report discusses our assessment of the Office of Management and
Budget Circular A-76 public/private competition that was initiated in January 1999 at
Lackland Air Force Base, Texas. The goal was selection of a supplier of base
operating services offering the best overall value to the Air Force. The competition
was conducted under the direction of the Air Force Air Education and Training
Command, the major command for Lackland Air Force Base. The scope of the A-76
competition included 19 base operating support functions, including airfield support and
workload transferred from Kelly Air Force Base, Texas, as a result of the 1995 Base
Closure and Realignment Commission decision to close that base. A total of 1,482 full-
time equivalent personnel positions performed the functions included in the A-76
competition. We conducted the audit in response to requests from the former Deputy
Secretary of Defense and from both United States Senators and four Members of
Congress from Texas.

Objectives. Our objective was to determine whether the Air Force fairly and
impartially conducted the Office of Management and Budget Circular A-76
public/private competition at Lackland Air Force Base. We also reviewed the
management control program as it related to the overall objective.

Results. The Air Force did not achieve supportable results from the
Lackland Air Force Base competition. The independent review officer and source
selection evaluations of the Government’s most efficient organization proposal were
flawed. Also, the administrative appeal process failed to reasonably assess the merits
of issues in the appeal submitted by the affected Government workforce. As a result,
the current cost comparison results for the public/private competition lack credibility.
See this report for further details.

We consider it to be the responsibility of the Air Force to consider the results of this
audit and to decide a future course of action. Among the options are:

     • Cancel the present solicitation and reannounce the A-76 competition at some
       future time.

     • Modify the solicitation and performance requirements document and request
       submission of revised proposals.
• Direct the source selection authority to perform additional review of the
  directed increase of full-time equivalent positions to the Government most
  efficient organization and the other issues raised in this report, and appoint a
  new appeal authority.

• Direct a new appeal authority and appeal review team to examine the
  Government workforce appeal and the adjustment to the contractor's bid for
  incentive fee in the cost comparison.




                                       ii
Table of Contents

Executive Summary                                                       i

Introduction
     Background                                                         1
     Objectives                                                         4

Finding
     Implementation of the OMB Circular A-76 Process                    5

Appendixes
     A. Audit Process
         Scope                                                         26
         Methodology                                                   26
         Management Control Program Review                             27
     B. Chronology of Lackland AFB A-76 Competition                    28
     C. Analysis of Disputed Costing Items                             29
     D. Analysis of Directed Increase to Most Efficient Organization   36
     E. Report Distribution                                            43
Background
        Office of Management and Budget Circular A-76 and DoD Guidance. The
        Office of Management and Budget (OMB) Circular A-76 and the OMB Circular
        A-76 Revised Supplemental Handbook establish policy and provide guidance on
        the process for conducting competitions between the Government and the private
        sector to perform support functions. The process includes: developing the
        performance work statement; issuing a solicitation that includes the performance
        work statement; developing a Government most efficient organization (MEO);
        the submission of in-house and private sector proposals; and source selection
        evaluation culminating in a cost comparison and a decision to perform the
        function with Government employees or by contract. A-76 competitions usually
        generate savings through a reduction in personnel, whether the Government
        MEO or a private sector contractor wins. DoD guidance on commercial
        activities is contained in DoD Directive 4100.15, “Commercial Activities
        Program,” March 10, 1989; DoD Instruction 4100.33, “Commercial Activities
        Program Procedures,” September 9, 1985; and “Department of Defense
        Strategic and Competitive Sourcing Programs Interim Guidance,” April 3,
        2000. The Air Force initially used guidance from the 1998 Air Force
        Commercial Activities Program Instruction, which was superseded by Air Force
        Instruction 38-203, “Commercial Activities Program,” August 1, 2000.

        Lackland Air Force Base A-76 Competition. The Air Force formally
        announced the start of the OMB Circular A-76 competition on January 26,
        1999. The scope of the A-76 competition included 19 base operating support
        functions, including airfield support and workload transferred from Kelly Air
        Force Base (AFB), Texas, as a result of the 1995 Base Closure and Realignment
        Commission decision to close that base1. A total of 1,482 full-time equivalent
        (FTE) personnel positions performed the functions included in the A-76
        competition2. The competition was the second of five large multifunctional




1
 Kelly AFB adjoins Lackland AFB, and many of the Kelly AFB facilities and runway will realign to
Lackland AFB after closure.
2
  This amount included 1,001 appropriated fund civilian and 438 military positions, and 43 nonappropriated
fund positions as of November 15, 2000. On January 26, 1999, the Air Force announced that 1,672 DoD
positions were performing functions subject to the competition, including 1,085 appropriated fund civilian,
502 military, and 85 nonappropriated fund positions. The Air Force later removed 190 personnel positions
from the competition. Headquarters Air Force, disapproved an AETC request to include Lackland AFB
lodging facility functions performed by 268 nonappropriated fund personnel in the A-76 competition.


                                                    1
        competitions3 that the Air Force Air Education and Training Command (AETC)4
        planned at its bases between 1998 and 2001. See Appendix B for a chronology
        showing milestone events for the Lackland competition.

        Development of Performance Requirements Document and MEO. The
        Competitive Outsourcing Office at Lackland AFB initiated the development of
        the performance requirements document (PRD) on February 8, 1999. The
        outsourcing office formed a number of integrated process teams to develop the
        summary of expectations, performance requirements, workload data, and similar
        information for each of the functions in the PRD. The Science Applications
        International Corporation (SAIC) supported the integrated process teams as a
        consultant. AETC contracted with SAIC to provide concept planning support at
        AETC facilities and to assist in the development of PRDs and MEO
        organizations for the A-76 competitions. SAIC was tasked to provide the
        support in part to provide expertise and assistance and to help meet planned
        milestones.

                Lackland A-76 Steering Group. An A-76 steering group at Lackland
        monitored the progress of the integrated process team effort related to the A-76
        competition. The steering group was formed pursuant to the Air Force
        Commercial Activities Program Instruction. The steering group was composed
        of representatives from the manpower and quality office, servicing personnel
        offices, and functional offices of primary responsibility, to make decisions on
        behalf of management. The groups were responsible to commanders for
        successful and timely completion of the cost comparison process. The AETC
        A-76 program office, part of the office of the AETC Director of Plans and
        Policies5, monitored the progress of the Lackland A-76 effort and its compliance
        with the commercial activities milestones.

                MEO Study Team. The MEO study team was established upon
        completion of the initial PRD on May 24, 1999. The study team included some
        integrated process team members that developed the PRD, as well as personnel
        from the functions included in the competition. SAIC was tasked to provide
        support to the MEO study team. SAIC also continued to provide limited
        support to the Lackland AFB Competitive Outsourcing Office and the AETC
        A-76 program office. The funding for SAIC support was substantially reduced
        and effectively ended during the month prior to the planned November 1999
        MEO proposal submission.

        Contract Solicitation for the Lackland A-76 Competition. The AETC issued
        solicitation F41689-99-R-0031 on August 9, 1999. The solicitation required
        offerors to submit proposals for the base operating support and airfield support

3
 AETC titled the five-base competition program the “Pic-A-Base” concept. Other competitions in order of
announcement were Maxwell AFB, Alabama (1998 start); Sheppard AFB, Texas (1999 start);
Keesler AFB, Mississippi (2000 start); and Randolph AFB, Texas (2001 start). The Lackland AFB
competition was the first of the competitions to reach a tentative cost comparison decision.
4
  AETC is located at Randolph AFB, Texas. Lackland AFB, Kelly AFB, and Randolph AFB are located in
metropolitan San Antonio.
5
  The AETC Director of Plans and Programs was later appointed the administrative appeal authority.

                                                  2
        functions at Lackland. The solicitation included a provision for private sector
        offerors to submit separate proposals for performance for base operating support
        functions and the airfield support functions, with the latter functions set aside
        for small businesses only. The solicitation specified a total performance period
        of 5 years and 9 months, which included a 90-day mobilization phase, a
        6-month base period, and five 1-year options. The proposal winners of the two
        competitions would be combined for a final single cost comparison with the
        MEO proposal. The solicitation requested that contractors submit proposals for
        a cost plus-incentive-fee contract with fixed overhead for performance of the
        base operating support functions, and a firm fixed-price proposal for
        performance of the airfield support functions.

        Tentative Source Selection Decision for Lackland Competition. On
        August 17, 2000, AETC announced that Lackland 21st Century Services
        Consolidated (L21)6, and Phoenix Management Incorporated, had won the A-76
        cost comparison for the base operating support functions and airfield support
        functions, respectively. The contractors won the competition by $2.4 million.
        The Government MEO total proposal (including a $10 million minimum
        conversion reduction)7 was $338.8 million and the combined contractor
        proposals with adjustments for contract administration and one-time conversion
        costs totaled $336.4 million.

        Appeal of Tentative Source Selection Decision. Affected Air Force
        employees at Lackland (including the President of American Federation of
        Government Employees Local 1367) submitted an appeal on September 15,
        2000. On October 24, 2000, the AETC appeal authority reversed the initial
        tentative decision, and announced the MEO was the winner by about $657,000
        ($335.7 million MEO cost versus combined contractor proposals with
        adjustments for contract administration and one-time conversion costs totaling
        $336.4 million).

        Protest of the Appeal Authority Decision. On November 6, and
        November 13, 2000, L21 protested the MEO selection to the General
        Accounting Office. On December 13, 2000, the AETC appeal authority
        reversed his October 24, 2000, decision, stating that after review of the protest
        issues and making two adjustments, the original source selection decision to
        award contracts to L21 and Phoenix Management was reinstated. The revised
        cost comparison showed that the total MEO cost was $337.9 million and
        combined contractor proposals with adjustments for contract administration and
        one-time conversion costs totaled $329.2 million.




6
 L21 is a joint venture of Computer Sciences Corporation, Del-Jen Incorporated, and TECOM
Incorporated.
7
  OMB Circular A-76 Revised Supplemental Handbook requires a minimum cost differential to ensure that
the Government will not convert to or from in-house or contract performance for marginal estimated
savings. The differential is the lessor of 10 percent of total MEO personnel costs or $10 million over the
performance period.

                                                    3
     Congressional and DoD Concerns about the Lackland A-76 Competition.
     On December 15, 2000, the two U.S. Senators representing the State of Texas
     and four Members of the U.S. Congress representing the San Antonio area
     wrote to the Secretary of the Air Force regarding their concerns about the
     manner in which the Air Force conducted the Lackland A-76 competition. They
     requested that the Air Force delay signing all contracts resulting from the
     competition until the Inspector General, DoD, completed a separate and
     independent investigation. On December 20, 2000, the former Deputy
     Secretary of Defense requested the Inspector General, DoD, to review the
     Lackland A-76 contracting action. The former Deputy Secretary noted that the
     potential impact of an A-76 action on the dedicated Government workforce
     requires the assurance that the A-76 process is fully respected, not only to
     maintain fairness during the process, but also to assure the appearance of
     fairness. On December 21, 2000, the Senators and four Members of Congress
     from Texas directly requested that the Inspector General, DoD, conduct a
     thorough review to ensure the A-76 cost comparison study at Lackland AFB was
     fairly and impartially conducted.

Objectives
     The audit objective was to determine whether the Air Force fairly and
     impartially conducted the public/private competition at Lackland. The audit also
     examined the management control program as it related to the overall objective.
     See Appendix A for a discussion of the audit scope and methodology and our
     review of the management control program.




                                        4
                    Implementation of the OMB Circular
                    A-76 Process
                    The Air Force did not achieve supportable results from the Lackland
                    competition. The independent review and source selection evaluations of
                    the MEO proposal were flawed. Also, the administrative appeal process
                    failed to reasonably assess the merits of issues in the appeal submitted by
                    the affected Government workforce. These conditions occurred because
                    of the following reasons.

                           •   The AETC and Lackland A-76 Program Office continually
                               emphasized completion of an arbitrary and exceedingly
                               optimistic milestone schedule established to meet the base
                               realignment and closure of Kelly AFB scheduled for April 1,
                               2001.

                           •   The contracting officer did not amend the solicitation to
                               incorporate several responses to offeror requests for
                               information into the PRD or to rectify inconsistencies between
                               the PRD and contract line items.

                           •   AETC appointed inexperienced and untrained personnel to be
                               independent review officers, who were not independent from
                               AETC management officials responsible for the competition.

                           •   The independent review officers did not verify that the MEO
                               was adequate to perform the documented tasks in the PRD and
                               that the MEO study team properly excluded common costs from
                               the MEO proposal.
                                                                                                 ∗
                           •   The source selection evaluation team did not adequately justify
                               additional FTE positions to the MEO.

                           •   To expedite completion of the source selection phase, the
                               contracting officer rejected an MEO study team rebuttal of a
                               source selection authority-directed increase of the MEO
                               organization, and advised the MEO study team to challenge
                               certain costing issues during the administrative appeal period.

                           •   The appeal authority rejected a number of the appealed FTE
                               increases, and certain costing issues, as untimely and advised
                               the MEO that they should have been resolved prior to
                               completion of the cost comparison.

                           •   The AETC Commander designated an appeal authority, who
                               was subordinate to the source selection authority; the appeal
                               authority did not appoint sufficient members to the appeal
                               review team to thoroughly review the appeal issues; and the

∗
    Source selection or contractor proprietary information omitted.

                                                       5
                            same contracting officer that advised the source selection
                            evaluation team and source selection authority also advised the
                            appeal authority and appeal review team.

                       •    The appeal authority reduced the amount of the incentive fee
                            that was included in the cost comparison based upon incorrect
                            recommendation from Headquarters, Air Force.

                 As a result, the most recent amounts entered on the cost comparison
                 form for the public/private competition lack credibility.

Milestone Schedule
        The Air Force conducted the Lackland competition with a scheduled time frame
        of 17 months from announcement to tentative cost comparison decision8. The
        arbitrary and exceedingly optimistic time frame was set at the direction of the
        AETC Commander to meet the April 1, 2001, base realignment and closure of
        Kelly AFB. The OMB Circular A-76 recommends 36 months for the
        performance of multifunctional competitions. Statutory time limits for
        completion of a multifunctional competition is 48 months. The Lackland and
        AETC A-76 Program Offices continually emphasized completion of milestone
        events as scheduled because the Kelly AFB closure and study delays would
        affect installation funding and the Air Force’s plan for achieving savings from
        the A-76 competitive sourcing initiative. Specific examples of the compressed
        schedule that impaired the competition process are noted throughout the report
        discussion.

Proposal Solicitation Phase
        Information Requests on Solicitation Requirements. The contracting officer
        was often untimely in responding to information requests from the MEO, did
        not respond to seven MEO information requests, and did not always amend the
        solicitation based upon information request responses. From August 11, 1999,
        to November 22, 1999, private sector offerors and the MEO study team
        submitted 626 information requests concerning the contract solicitation and
        PRD. Although Lackland Competitive Outsourcing Office procedures stipulated
        that the contracting officer should respond to information requests submitted by
        the MEO within 3 working days, the contracting officer did not respond to the
        first round of requests, many of which were submitted by the study team, for
        over a month. Moreover, some responses often took much longer than a month
        and sometimes there were no responses. For example, the MEO study team
        submitted an information request on August 25, 1999, to determine whether a
        requirement in the PRD was an inherently governmental function that should be
        outside the scope of the A-76 competition. In a separate memorandum to the
        contracting officer on August 25, 1999, the study team noted that proposal
        development was being adversely impacted because they did not receive a

8
 The schedule was generally adhered to with actual time from announcement to tentative cost comparison
being 18.5 months.

                                                   6
           response to this and other information requests. Because of the requirement for
           independent review of the MEO’s proposal, the MEO advised that it had to
           substantially complete its proposal by September 28, 1999. The contracting
           officer stated that she had to rely on others for most information request
           responses and that she had little control over response delays.

                   Lack of Clarifying Amendments. The contracting officer also did not
           prepare clarifying amendments based upon information request responses. For
           example, the contracting officer response to information request number 6
           provided a demolition schedule of military family housing units. The schedule
           showed that during the performance period, the number of units to be
           maintained would significantly decrease. The MEO study team stated that it
           used information response number 6 to propose maintenance support.
           However, the source selection authority subsequently directed an increase of *
           positions to the MEO to meet the PRD level for military family housing
           maintenance. The contracting officer posted all responses to the information
           requests to a website. The website was accessible to offerors and the MEO
           study team in an effort to remove the chance that any offeror could gain a
           perceived advantage from the responses. However, the source selection
           evaluation team relied solely on the PRD to evaluate the MEO and the
           information requests were not considered.

                   Information Request on Common Costs. On August 11, 1999, the
           MEO study team submitted information request number 222 for validation of
           conclusions regarding common costs, as well as resolution of whether certain
           other items were viewed as common costs. The contracting officer's
           September 14, 1999, response to number 222 addressed only the latter issue.
           As discussed later, common costs became a major point of contention and an
           item that was included in the workforce administrative appeal.

Independent Review Certifications
           Criteria. The OMB Circular A-76 Revised Supplemental Handbook states the
           following regarding the independent review officer.

                    •    Should be a qualified person from an impartial activity that is
                         organizationally independent of the commercial activity being
                         studied and the activity performing the cost comparison.

                    •    Acts as an independent authority to: (a) ensure that the data
                         contained in the Management Plan reasonably establish the
                         Government's ability to perform the PWS9 within the
                         resources provided by the MEO, and (b) ensure that all costs
                         entered on the CCF [cost comparison form] are fully justified


∗
    Source selection or contractor proprietary information omitted.
9
  PWS means performance work statement, which is the synonymous with the term performance
requirements document used by the Air Force.

                                                       7
                     and calculated in accordance with the procedures described in
                     Part II of this Supplement.

        The 1998 Air Force Commercial Activities Program Instruction and
        Air Force Instruction 38-203, “Commercial Activities Program,”
        August 1, 2000, contains the following guidance.

                •    The [independent] review is completed far enough in advance
                     of the bid or initial proposal receipt date to allow sufficient
                     time for the IRO [independent review officer] to conduct the
                     review, and the [MEO] preparer to correct any discrepancies
                     found. Milestones will be established to ensure a minimum of
                     four weeks for single function cost comparisons and a
                     minimum of six weeks for multi-function cost comparisons.
                     These time periods include total time required for both base
                     level and command level reviews.

        Air Force Instruction 65-504, “Independent Review of Commercial
        Activity Cost Comparisons,” February 25, 1994, contains the following
        guidance.

                •    The Assistant Secretary of the Air Force (Financial
                     Management) is responsible for monitoring the training for
                     conducting independent reviews.

                •    Major Commands and Bases are responsible for establishing
                     command policy for IRO [independent review officer]
                     training, ensuring IRO personnel receive training in
                     independent review procedures, designating in writing a
                     primary IRO, and establishing teams for large, complex cost
                     comparisons.

                •    To help ensure that the independent review meets the required
                     level of thoroughness, AFMAN (Air Force Manual) 65-507,
                     Independent Review Guide, provides mandatory procedures
                     for completing independent reviews.

        Qualifications of Independent Review Officers. The principal independent
        review officers (review officers) who reviewed the MEO and certified the cost
        comparison for the Lackland competition had minimal A-76 training and,
        collectively, little independent review experience. In addition, the independent
        reviews did not include technical evaluations to demonstrate that the MEO could
        meet PRD requirements. The AETC, Director of Financial Management
        verbally assigned two10 GS-12 financial management analysts from headquarters,
        AETC, and the Lackland Comptroller verbally assigned a GS-11 financial
        management analyst from the 37th Training Wing, as the review officers
        (hereafter review officer A-1, review officer A-2, and review officer L). These

10
  Both GS-12 financial management analysts from AETC worked on the initial independent review of the
MEO proposal for the Lackland A-76 competitions in October 1999. Only one GS-12 AETC analyst
participated in the subsequent independent reviews of the MEO proposal.

                                                  8
review officers worked together on a joint review of the MEO proposal.
Review officer L worked under the general direction of review officer A-1 (until
his retirement in January 2000) and review officer A-2. Review officer A-1 had
performed other independent reviews of A-76 competitions, including the “Pic-
A-Base” study at Maxwell AFB, prior to the Lackland study. He provided on-
the-job training and limited guidance on performing A-76 independent reviews
to review officer A-2 and review officer L. Neither of these individuals had
participated on an A-76 independent review. Review officer L attended a 4-day
course on “compare” software to prepare the cost comparison form 2 weeks
before the independent review of the MEO proposal began in October 1999.
Review officer A-2 received “compare” training in February 2000. Both of
these review officers stated they were uncomfortable performing the
independent reviews because they lacked understanding of their responsibilities.
Review officer A-2 also stated that part of the guidance that review officer A-1
provided was incorrect. None of the review officers examined whether the
MEO was adequate to perform the PRD. This mandatory review step was
required by Air Force Manual 65-507. Because of the technical complexity and
mix of the tasks and assignments being proposed for competition, neither the
AETC nor the Lackland review officers were qualified to assess the ability of
the MEO to perform the requirements of the PRD, without technical support.

Independence of Review Officers. The AETC and Lackland review officers
lacked independence from AETC management officials responsible for the
competition. Both individuals were employed by AETC and were subordinate
to the source selection authority (AETC Vice Commander [a Lieutenant
General]). In addition, the AETC A-76 Program Manager and the Director of
the Lackland AFB Competitive Outsourcing Office imposed unrealistic time
constraints for completing their review officer certifications. The review
officers did not review the source selection authority adjustments to the MEO
because they believed they could not question the decision of the AETC Vice
Commander.

Scope of the Independent Reviews. The Lackland review officer worked on
the A-76 competition from February 1999 until December 2000. She reviewed
the PRD from the first draft to the last change, and participated in all reviews of
the MEO proposal. The AETC review officers only reviewed the MEO
proposal and subsequent proposal changes. The scope of the independent
reviews did not include verification that the management plan reasonably
established the Government’s ability to perform the PRD within the resources
provided by the MEO. This requirement was one of the two principal
objectives of the A-76 independent review. These discrepancies were caused by
the following four factors.

       •   Review officer A-1, the only experienced review officer, did not
           include steps to accomplish this objective in his February 1999
           Independent Review Guide.

       •   Review officers A-2 and L were inexperienced and not adequately
           trained.



                                     9
                  •   Review officers A-2 and L did not follow the guidance in Air Force
                      Manual 65-507.

                  •   AETC and Lackland A-76 program managers imposed time limits on
                      the review officers that were insufficient to perform the more
                      detailed review required by the Air Force Manual 65-507 guidance.

         The review officers provided the following certifications.

                  •   November 18, 1999. The Lackland and two AETC review officers,
                      and two people designated as base-level review officers for the future
                      A-76 competitions at Keesler and Sheppard AFBs, conducted the
                      initial review of the MEO proposal from October 14 through 26,
                      1999. They verified that the amounts on the cost comparison form
                      were traceable to the technical performance plan, and that the MEO
                      used correct rates in their calculations. These review officers did not
                      verify that the MEO, management study, and the PRD were based on
                      the same scope of work and did not perform technical evaluations to
                      verify that the MEO could perform PRD requirements. Air Force
                      Manual 65-507 requires that review officers trace requirements from
                      the PRD to the MEO by reviewing supporting documentation in the
                      management plan. There was no evidence that the AETC or
                      Lackland review officers analyzed the contract line items in the
                      solicitation, the information requests submitted by the MEO, or
                      related responses, to ensure that common costs were properly
                      excluded from the MEO proposal. Also, as part of the review
                      process, the AETC and Lackland review officers did not assess or
                      rely on the results of two separate technical evaluations11 of the
                      adequacy of the MEO to meet PRD requirements. Review officer
                      A-2 stated that the review officers were not even aware of the
                      October 1999 red team review. Review officers A-1 and L signed
                      the initial review officer certification on November 18, 1999.

                  •   November 23, 1999. Review officers A-1 and L recertified the
                      accuracy of the MEO proposal after the Lackland Competitive
                      Outsourcing Office identified an error in the service contracts area of
                      the PRD. Review officer A-1 had suggested a 10-day extension to
                      the proposal submission date, but the Lackland manpower official
                      that certified the ability to implement the MEO, informed the review
                      officers that the Director of the Lackland Competitive Outsourcing
                      Office was opposed to an extension. After the review officer
                      recertification, the MEO study team delivered their proposal to the
11
  In September 1999, Lackland functional managers performed a “Red Team Review” of the tentative
MEO structure and study documentation. On October 5 to 7, 1999, AETC functional representatives
performed an “AETC Validation Review.” The AETC validation reviewed the MEO technical
performance plan and related documentation to ensure coverage of all PRD requirements and Air Force
regulations. Members of both teams stated that the MEO structure was innovative and capable of
performing the PRD requirements. However, the conclusions of neither team were formally documented.
Because of the lack of documentation, we can not determine what specific changes to the MEO structure
resulted from either review. AETC intends to better utilize the validation review by incorporating it into
the independent review for the AETC A-76 competitions at Sheppard, Keesler and Randolph AFBs.

                                                    10
          AETC contracting officer because November 24, 1999, was the
          closing date specified in the solicitation for offerors to submit their
          proposals.

      •   March 9, 2000. Review officers A-2 and L recertified the accuracy
          of the MEO proposal because of solicitation changes and salary rate
          changes for general schedule civilian employees. Review officer L
          began her review of the changes to the cost comparison form and the
          technical performance plan on March 6, 2000, with review officer A-
          2 starting the next day. They were informed the morning of March 6
          that the MEO team had to submit a revised proposal package to the
          AETC A-76 Program Office with review officer certification by the
          close of business March 7. The review officers completed their
          review on the afternoon of March 9, 2000, and were thus provided
          less than 3 days to recertify the total MEO proposal.

      •   August 15, 2000. Review officers A-2 and L recertified the accuracy
          of the MEO proposal after the source selection authority directed an
          adjustment to the MEO. The review officers began their analysis on
          August 1 and checked corrected pages, tables, numbers, grades, and
          salaries for the added FTE positions in the proposal package for
          consistency, and reviewed the revised cost comparison form. They
          also started a review of cost concerns relating to the MEO that the
          source selection evaluation team had identified, but never finished the
          review. A log maintained by review officer L states that review
          officer A-2 asked the MEO study team to review the concerns on
          August 14. The review officers A-2 and L, during a September 29,
          2000, meeting with the appeal review team, told them that they never
          finished the review of the source selection evaluation team concerns
          because they were given only 15 days to recertify the total MEO
          proposal.

      •   October 23, 2000. Review officers A-2 and L certified the accuracy
          of the revised cost comparison form that reflected the appeal
          authority’s October 20 decision and related recalculations. The
          review officers verified changes in the new cost comparison form
          against the old cost comparison form. The review only lasted about
          1 hour and 15 minutes.

      •   November 28, 2000. Review officer A-2 certified the accuracy of
          the revised cost comparison form that included the application of a
          35 percent reduction to the contractor's fee and an increase of seven
          FTE positions to the MEO.

Review Documentation. The review officers did not document their reviews in
accordance with Government Auditing Standards for Federal organizations.
This situation occurred because the OMB Circular A-76 Revised Supplemental
Handbook, and DoD guidance does not specify standards for conducting or
documenting an independent review. In addition, the AETC and Lackland
review officers did not complete the checklist from Air Force Manual 65-507,
or prepare memorandums for record to document the basis for the “yes or no”

                                    11
checklist answers. Review officers A-1 and A-2 relied on review officer L to
maintain supporting documentation for the independent reviews. Review
officer L documentation consisted of a log from January 1999 to
December 2000; memorandums identifying discrepancies between the MEO
technical performance plan, core documents, and supporting spread sheets; files
containing the PRD and changes; signed cost comparison form certifications,
and various e-mail correspondence. The review officers did not prepare
working papers to document the steps performed, the extent of testing and
verification, and supervisory reviews.

We believe that review officers should prepare working papers that contain
sufficient information to enable an auditor or any oversight official having no
previous connection with the independent review to ascertain the evidence that
supports the independent reviewer's certification and the quality of the
independent review.

Management Control Weakness. The review officer process is a material
management control for ensuring the credibility of the MEO; the reliability and
accuracy of amounts presented on the cost comparison form; and the credibility,
impartiality, and fairness of the A-76 process. The AETC and Lackland review
officers were not effective for the Lackland A-76 competition. Their inadequate
reviews created additional work for the source selection evaluation team,
contributed to the need for the source selection authority-directed increase to the
MEO, and failed to discern inconsistencies and problems in the solicitation that
should have been corrected. The Army and the Navy have assigned the
independent review responsibilities for large A-76 competitions to their Auditor
Generals to ensure independence. Regardless of whether internal auditors or
other personnel are used for this function, the Air Force needs to ensure that the
following options are completed.

       •   Train review officers on the OMB Circular A-76 process prior to
           assigning independent review responsibilities.

       •   Obtain technical support, as appropriate, to assess the ability of the
           MEO to perform the requirements of the performance work
           statement or the PRD.

       •   Assign review officers that are organizationally independent from
           management officials responsible for the competition.

       •   Require review officers to verify that the management plan and
           technical performance plan document how the MEO will perform the
           work in the PRD, and that no inconsistencies exist between these
           documents.

       •   Require review officers to document their reviews in accordance with
           requirements similar to Government Auditing Standards.

The Air Force should also reiterate that major commands and installations
review officers adhere to the guidance timelines established in section 16.3 of


                                    12
     the Air Force Instruction 38-203 when conducting reviews. We are making
     recommendations along these lines in separate correspondence to the Air Force.

Source Selection Process
     Criteria. The OMB Circular A-76 Supplemental Handbook states that:

            •   As required by the FAR (Federal Acquisition Regulation), the
                Government should establish a Source Selection Authority,
                including assurances that there are no potential conflicts of
                interest in the membership of the Authority.

            •   The Authority reviews contract and interservice support
                agreement offers and identifies that offer which represents the
                “best overall value to the Government.” This contract offer
                competes with the Government’s in-house cost estimate.

            •   With the selection of the competitive offer, the contracting
                officer submits to the Authority the Government’s in-house
                Management Plan, which must comply with the technical
                proposal requirements of the solicitation. The Authority
                evaluates the in-house offer and assesses whether or not the
                same level of performance and performance quality will be
                achieved. The Authority shall not review or have access to
                the in-house cost estimate.

            •   The Government makes all changes necessary to meet the
                performance standards accepted by the Authority. Revised
                cost estimates are resubmitted to the IRO [independent review
                officer] for acceptance.        This will assure that the
                Government’s in-house cost estimate is based upon the same
                scope of work and performance levels as the best value
                contract offer.

            •   For a negotiated or best value procurement, after selection of
                the private sector’s most advantageous proposal, and all
                necessary adjustments have been made to ensure that the
                Government's in-house cost estimate and other offers are
                based upon the same scope of work and performance
                standards, the contracting officer opens the Government’s in-
                house cost estimate, and announces the results of the CCF
                [cost comparison form].

     Section M of the contract solicitation identified the evaluation criteria that the
     Government would use to evaluate contractor proposals using a best value
     procurement and the procedures for performing the cost comparison with the
     MEO. In regard to the cost comparison, it states:

            •   If the SSA [source selection authority] determines that the
                MEO proposal represents a comparable level of performance

                                          13
                     and performance quality to the best value contractor’s
                     proposal, then the SSA will direct completion of the cost
                     study. At that time, the Government will open the MEO’s bid,
                     complete the cost comparison form, and make the cost
                     comparison decision . . .

                 •   However, if the SSA [source selection authority] determines
                     that the MEO proposal does not represent a comparable level
                     of performance and performance quality to the best value
                     contractor’s proposal, then the SSA will direct the MEO to
                     adjust its TPP (technical performance plan) or MP
                     (management plan), or both, to a comparable level. Once the
                     SSA is satisfied that equity has been achieved, the MEO will
                     revise its in-house cost estimate to reflect the changes. After
                     the Government conducts an independent review to ensure the
                     in-house estimate is accurate, the Government then will
                     complete the cost comparison form and make the cost
                     comparison decision.

                 •   In conducting the cost comparison between the best value
                     contractor and the MEO, the Government will add the total
                     proposal price of the best value “Airfield Support” contractor
                     to the total proposal price of the best value “Base Operating
                     Support” contractor. The Government will compare this sum
                     against the MEO’s total bid for all services, including Airfield
                     Support. The cost comparison decision will result in either all
                     contract performance or all MEO performance, not a
                     combination of the two.

        Source Selection Organization. The source selection organization, as
        described in the Source Selection Plan, for the Lackland A-76 competition,
        consisted of the source selection authority, the source selection evaluation team,
        and source selection advisors (attorney and contracting officer). The AETC
        Commander appointed the AETC Vice Commander (a Lieutenant General) as
        the source selection authority on June 7, 1999. The source selection authority
        appointed the Director for Plans and Policy, 37th Training Wing, Lackland, as
        source selection evaluation team chair, and the source selection evaluation team
        chair appointed 17 other members to the source selection evaluation team on
        October 15, 1999. The members of the source selection evaluation team were
        all military personnel assigned to Randolph, Lackland, and Kelly AFBs. Three12
        members were assigned to positions that were directly affected by the A-76
        competition. The “affected” source selection evaluation team members were
        not disqualified from participation because no prohibition existed at the time of
        their appointment or at the time of the source selection authority's tentative
        decision on August 17, 2000. On September 9, 2000, OMB issued the
        following guidance.


12
  A fourth person assigned to the source selection evaluation team was removed after he disclosed a
potential conflict. The member’s spouse worked for a company that intended to participate in the A-76
competition.

                                                   14
                    •    It is good business practice to exclude individuals who are
                         directly affected by an A-76 cost comparison from
                         participating in a Source Selection Board (SSB) for the
                         resulting contract. The source selection process is most
                         effective when decision makers are chosen independent of the
                         function under review. OMB readily acknowledges that the
                         employment of military service personnel will not be adversely
                         affected by the decision to retain or convert work to or from in
                         house, contract or interservice support agreement
                         performance. However, we do not believe that including
                         military personnel, whose current jobs, local responsibilities,
                         assignments and even supervisory relationships could be
                         affected, is a good business practice in the context of an A-76
                         cost comparison.

           Evaluation of the MEO. After the selection of the best value contractors, the
           source selection evaluation team opened the MEO study team’s sealed
           management plan and technical performance plan. The source selection
           evaluation team was unfamiliar with the plans because they differed substantially
           in quantity, length, and format from the plans submitted by the best value
           contractors in response to the solicitation. The MEO team submittals were
           required, for the most part, by OMB guidance. The source selection evaluation
           team began its review of the MEO's technical performance plan and
           management plan on May 19, 2000. The source selection evaluation team
           issued ∗ evaluation notices in three rounds and held numerous discussions with
           the MEO study team from May 26 through July 11, 2000. SAIC support was
           not provided to assist the MEO study team in responding to the evaluation
           notices or to prepare for discussions with the source selection evaluation team
           after the selection of the best value contractors. A cost price analyst was made
           available to the MEO study team to answer contracting questions.

                   Deficiency Procedures. Evaluation notices are categorized as
           “clarification,” “discussion,” or “deficiency.”13 Air Force characterization
           procedures require the issuance of deficiency notices when a proposal does not
           meet requirements of the PRD. Of * evaluation notices requiring response,14 *
           notices ( * percent) were marked clarification, * notices ( * percent) were marked
           discussion, * notices ( * percent) were marked deficiency, and * notices
           ( * percent) were unmarked. * of the * deficiency notices pertained to the * and
           were resolved, for the most part, before the last round of discussions. Other
           deficiency notices included * . The other evaluation notices ranged from

∗
    Source selection or contractor proprietary information omitted.
13
  The Air Force Source Selection Procedures Guidance defines “clarifications” as limited exchanges that
involve clarification of certain aspects of the proposal or resolution of minor or clerical errors. The
guidance states that “discussions” are required for those areas of a proposal that are considered deficient,
where weaknesses exist, or where other aspects of the offeror’s proposal are significant enough to affect the
selection decision, and/or where data presented by the offeror is unclear.
14
   The source selection evaluation team retracted [source selection information omitted] evaluation notices
issued.

                                                       15
           requests for clarification regarding * , to fairly mundane issues such as * , and * .
           Given the significant staffing deficiencies that were identified only after
           discussions were closed, the evaluation notices did not convey to the MEO that
           the source selection evaluation team considered its staffing deficient by a
           significant amount. In fact, the MEO study team members were shocked when
           they eventually received notice of the quantity of the adjustments ordered by the
           source selection authority. The source selection evaluation team issued
           clarification notices in ∗ of the * functional areas that were identified to the
           source selection authority as deficient.

                   MEO Ability to Perform PRD. A major issue of contention throughout
           the evaluation and discussion period was the ability of the MEO to perform the
           PRD. The MEO had proposed a radically different organization, staffing, and
           concept of operations from the existing organizational structure. The
           discussions involved attempts by the MEO study team to explain the basis of
           proposed efficiencies and staffing in its management plan, and the source
           selection evaluation team's concerns regarding how the MEO could perform
           certain functions in the PRD. Some personality conflicts between the MEO
           study team and source selection evaluation team occurred, as well as disputes
           regarding the clarity of MEO study team responses, and a perception, by some,
           that the MEO was unable to compromise. The MEO study team increased
           staffing by * FTE positions during the evaluation notice process. However, in
           some instances the study team increased staffing in response to one or more
           notices but decreased staffing elsewhere without explaining the reduction or with
           minimal explanation. On July 5, 2000, the contracting officer issued a letter
           advising the MEO that further changes and discussions would be closed after the
           MEO study team responded to the third round of * evaluation notices. The letter
           was issued on Wednesday with a response required by the following Monday
           morning. The MEO study team was able to meet the deadline after working
           approximately 16 hours per day.

                   Source Selection Evaluation Team Determination. Only after the
           receipt of all responses to the evaluation notices did the source selection
           evaluation team determine the numbers of FTE positions it believed were
           necessary to perform the PRD requirements. Source selection evaluation team
           personnel stated they did not compare the MEO to the contractor's performance
           level in order to determine the amount of the directed MEO staffing. For the
           most part, the source selection evaluation team numbers were based on
           historical workload information from the PRD. As a result of this analysis, the
           source selection evaluation team determined the need for a * percent increase in
           MEO staffing. The source selection evaluation team also determined the need
           for a * percent increase in MEO staffing for * . MEO staffing was increased by
           *
             percent for specific subfunctions such as * .

           Source Selection Authority-Directed Adjustments. On July 12, 2000, the
           source selection evaluation team briefed the source selection authority on its
           findings after the evaluation of the MEO. The source selection evaluation team
           reported that the proposed MEO required an increase of * FTE positions in
           *
             functional areas to perform the requirements in the PRD. On July 13, 2000,

∗
    Source selection or contractor proprietary information omitted.

                                                       16
           the source selection authority directed the MEO study team to adjust the MEO
           technical performance plan and management plan by adding ∗ FTE positions15.
           The difference in adjustment amounts occurred because of a source selection
           evaluation team error in computing the existing MEO structure. The source
           selection evaluation team detected the error while preparing the source selection
           authority directive memorandum and reviewing the accompanying justification
           for the adjustments. The source selection authority-directed adjustments ranged
           from * additional FTE positions for * functional areas to * additional FTE
           positions for the * functional area. The MEO study team was excluded from the
           source selection evaluation team briefing to the source selection authority and
           did not become aware that the source selection evaluation team had
           recommended the adjustments to the MEO until it received the July 13, 2000,
           source selection authority directive. The source selection authority also directed
           the MEO to submit a complete revised proposal that included the additional FTE
           positions by July 19, 2000. The arbitrarily short proposal revision period was
           to maintain compliance with the milestone schedule for completing the A-76
           competition.

           Inspector General, DoD, Analysis of Source Selection Authority-Directed
           Changes. Of the * FTE positions included in a source selection authority-
           directed increase of the MEO organizational structure, * FTE positions were not
           justified. We estimate that $ * in unneeded personnel and related overhead costs
           may have been added to the MEO bid because of the unsupported ( * FTE)
           portion of the directed increase. See Appendix D for our analysis of the source
           selection authority directed changes.

           MEO Team Rebuttal, Contracting Officer Response, Revised MEO
           Proposal, and Protest to General Accounting Office. On July 16, 2000, the
           MEO study team forwarded the contracting officer a written rebuttal to the
           source selection authority-directed adjustments. The letter requested that the
           source selection authority rescind the July 13, 2000, memorandum. On July 17,
           2000, the contracting officer advised the MEO study team that its rebuttal was
           rejected because discussions were closed. On July 19, 2000, the MEO study
           team submitted a revised proposal that included the directed adjustments. The
           source selection evaluation team reviewed the revised MEO proposal and
           briefed the source selection authority on July 26, 2000, that the MEO level of
           performance and performance quality was equivalent to the best value
           contractors. The MEO study team filed a protest with the General Accounting
           Office on July 27, 2000, that reiterated the arguments raised in the rebuttal to
           the source selection authority-directed adjustments. The Air Force General
           Counsel withdrew the protest on July 31, 2000. The General Accounting Office
           has previously determined that Government employees do not have standing to
           bring protests regarding A-76 competition outcomes.



∗
    Source selection or contractor proprietary information omitted.
15
  The MEO study team eventually added [source selection information omitted] FTE positions to the
organizational structure with the remaining [source selection information omitted] FTE positions accounted
for through [source selection information omitted].

                                                       17
           Tentative Cost Comparison Decision. On August 15, 2000, the MEO study
           team leader signed the cost comparison form certifying the MEO. Review
           officer A-2 signed the cost comparison form certifying that all costs were
           properly presented and justified. The MEO study team leader signed the cost
           comparison form because the representative on the MEO study team from
           Lackland Manpower Office, who had certified prior versions of the cost
           comparison form, refused. The official disagreed with the revised MEO
           because he believed the source selection authority directed adjustment was not
           supported. The study team leader signed the certification to avoid
           disqualification of the MEO proposal. This MEO certification did not comply
           with the OMB A-76 Revised Supplemental Handbook because the MEO study
           team leader was not organizationally independent of the function under study
           and was included in the MEO.

           Personnel from the AETC A-76 program office opened the MEO cost proposal
           without the presence of the contracting officer on August 17, 2000. Although
           we did not find any evidence that the cost comparison form had been changed or
           tampered with, this action was clearly contrary to OMB guidance. During the
           review of the MEO cost proposal, a question arose about common costs. Fixed
           or “plugged” prices were included in the contract line item schedule for five
           common costs such as replacement of government equipment. These prices
           were fixed for all offerors and totaled $40.86 million for the performance
           period. Review officer A-2 advised that the MEO included some common costs
           but could not quantify those costs. After consultation between the AETC
           Program Office, review officers, contracting officer, and AETC legal counsel,
           the contracting officer and the AETC Program Office decided further action was
           unnecessary. All parties agreed to proceed with the selection, and to advise the
           MEO study team that it could submit an appeal to the AETC appeal authority.
           Deleting the “plugged” line items from the cost comparison deviated from the
           evaluation criteria in section M of the solicitation which specified that the “total
           proposal price” of the contractors would be “compared to the MEO's total bid
           for all services.” If the government intended to remove the contract line items
           from the cost comparison, section M should have specified that the “plugged”
           line items would not be included in the final cost comparison. Having deleted
           the “plugged” line items from the contractors' costs, the MEO common costs
           should have been deleted from its proposal. We determined the MEO proposal
           included $∗ in common costs for material, supplies and equipment16.
           The contracting officer then declared L21 and Phoenix Management as the
           tentative winners. The contracting officer’s announcement was 1 day ahead of
           the August 18 milestone for the conditional award announcement that the source
           selection evaluation team briefed to the source selection authority on July 12.
           On September 6, 2000, the contracting officer and source selection evaluation
           team chair debriefed the MEO study team.

           Pending DoD Interim Guidance. As of April 2001, the Office of the Deputy
           Under Secretary of Defense (Installations) is performing final revisions to

∗
    Source selection or contractor proprietary information omitted.
16
     See Appendix C for Inspector General, DoD, analysis of study common costing items.

                                                       18
    pending guidance on the impact of best value procurements on the A-76 cost
    comparison process. The guidance would limit the role of the source selection
    authority in the evaluation of the MEO proposal to assess whether the in-house
    offeror is proposing the same level of performance and performance quality (for
    example, outputs) as required by the performance work statement and as
    proposed by the selected offeror. The guidance would prohibit the source
    selection authority from requiring specific changes to the in-house approach or
    MEO staffing requirements. The pending guidance emphasizes that
    determination that the MEO has sufficient resources (for example, FTE
    positions) is the responsibility of the individual who certifies the MEO and the
    review officer. As the guidance is pending approval, we will not make
    recommendations regarding the source selection authority’s adjustments to the
    MEO proposal.

Administrative Appeals Process
    Criteria. The OMB Circular A-76 Supplemental Handbook states:

           •   The A-76 Administrative Appeals Process is invoked following
               a tentative cost comparison decision.

           •   The appeal must be submitted by an eligible appellant within
               the appeal period. An eligible appellant includes Federal
               employees (or their representatives) and contractors that have
               submitted formal bids or offers who would be affected by a
               tentative decision to convert to or from in-house, contract, or
               interservice support agreement performance as a result of a
               cost comparison.

           •   An appeal must address specific questions regarding an
               agency’s compliance with the requirements and procedures of
               this Circular, address specific questions regarding the costs
               entered by the Government on the applicable cost comparison
               form and set forth the rationale for questioning those items, or
               identify specific instances of agency denials of information not
               otherwise protected by law or regulation.

           •   An appeal must demonstrate that the items appealed,
               individually or in aggregate, would reverse the tentative
               decision.

           •   With receipt of an eligible appeal, the official (assistant
               secretary or equivalent level and officials at a comparable
               level in major component organizations designated to have
               responsibility for implementation of the Circular) assigns an
               official(s) to serve as the A-76 Administrative Appeal
               Authority for that appeal. The individual(s) selected must be
               independent of the activity under review or at least two
               organizational levels above the official who certified the


                                        19
           Government’s Management Plan and MEO, in the case of a
           tentative cost comparison appeal.

       •   The Appeal Authority ensures that the cost items challenged in
           the appeal are properly accounted for in accordance with the
           procedures of Part II of the A-76 Supplemental Handbook,
           [and] that all participants to the cost comparison process have
           appropriate access to the decision process.

       •   If significant problems with the cost comparison estimates are
           found, such that the tentative decision may be unsupported or
           is in error, the Appeal Authority corrects the error and cost
           comparison, if applicable, and the agency proceeds according
           to the amended decision. The Authority will not review any
           item not formally challenged by an eligible appellant.

       •   Agency A-76 Administrative Appeal procedures do not apply
           to questions concerning Government management decisions
           involving the Government’s certified in-house MEO.

       •   The appeals procedure should provide for a final decision
           within 30 days of receipt of the appeal by the Appeal
           Authority.

The Federal Acquisition Regulation subpart 7.3—“Contractor Versus
Government Performance,” section 7.307, “Appeals,” references the Handbook
guidance and reemphasizes that:

       •   The appeals procedure shall provide for an independent,
           objective review of the initial result by an official at a higher
           level than the official who approved that result.

The Under Secretary of Defense for Acquisition, Technology, and Logistics
issued interim guidance on April 3, 2000, that states:

       •   Appeals are part of the deliberative process and, therefore,
           are not to be released to other parties (i.e., affected or not
           affected) until the AAP [administrative appeals process] is
           completed and a final A-76 cost comparison decision is made.

       •   Personnel involved in the A-76 cost comparison process may
           not be part of the AAP [administrative appeals process] but
           may provide information, data, or explanations regarding the
           basis for determinations or decisions made during the A-76
           cost comparison process. The AAP should solicit assistance
           from anyone necessary in evaluating the appeal.

       •   The AAP [administrative appeals process] Authority shall
           validate discrepancies identified in the appeal and shall
           ensure the appropriate changes are made to the cost
           comparison form. The AAP Authority shall ensure a complete

                                    20
           audit trail (with rationale) is maintained to document all
           corrections.

Air Force Instruction 38-203, “Commercial Activities Program,” states:

       •   Upon expiration of the date specified for receipt of
           contract/ISSA [interservice support agreement] offers,
           revisions or changes to the Government Cost Estimate are
           only permitted: If cost comparison rates or factors change. If
           changes to the Management Plan (i.e., TPP [technical
           performance plan]), as directed by the SSA, [source selection
           authority] impact the cost estimate, If directed by the AAP
           [administrative appeals process] Authority, or If due to an
           amendment to the solicitation.

Appointment of Appeal Authority. On April 10, 2000, the AETC
Commander appointed the AETC Director of Plans and Programs, a Brigadier
General, as the AETC Administrative Appeal Process Authority for the A-76
competitions at Lackland and Maxwell AFBs, and all future AETC A-76
competitions. The appointment complied with A-76 requirements that the
appeal authority be at least two organizational levels above the person certifying
the MEO, and independent of the functions being cost compared. However, the
appointment was an apparent conflict because the AETC Director of Plans and
Programs was subordinate to the AETC Vice Commander (a Lieutenant
General), whom the AETC Commander had appointed as source selection
authority. As the appeal challenged staffing adjustments made to the MEO, the
appeal authority essentially was being asked to determine the propriety of
decisions made by a superior officer in command as well as by rank. The
appearance of fairness was significantly compromised under these
circumstances. The appeal authority should have been selected from another
major command, and been senior in rank to the source selection authority in
order to provide an objective and independent appeal of the issues raised by the
MEO study team. An outside independent appeal authority is particularly
necessary when the appeal raised issues pertaining to changes that were directed
by the source selection authority.

Appeal Submitted. Government employees affected by the decision submitted
an appeal to the initial cost comparison decision on September 15, 2000. The
appeal addressed three areas: MEO costing issues, the source selection
authority-directed adjustment to the MEO, and proposed contractor costs.

Composition of Appeal Review Team. The appeal authority appointed three
civilians from Headquarters, AETC, as the appeal review team (review team) on
September 20, 2000. The review team and appeal authority advisors included
an AETC Staff Judge Advocate officer, who had no previous involvement with
the Lackland A-76 competition; the AETC contracting officer responsible for
the Lackland A-76 contract, who had also advised the source selection
evaluation team and source selection authority; an AETC A-76 Program Office
representative previously involved in the oversight of the competition; and three
other AETC contracting personnel. The assignment of the responsible
contracting officer and the A-76 Program Office representative, and their active

                                    21
           participation in review team meetings, compromised the appearance of
           independence and impartiality of the administrative appeal process.
           Participation of these individuals was inconsistent with the DoD interim
           guidance that stated anyone participating in the A-76 cost comparison process
           shall be ineligible to be the appeal authority or serve on an appeal authority
           board. Although the guidance does not specifically address “advisors,” the
           active participation of these personnel in meetings gave the appearance that they
           were ad hoc members of the review team. The review team (three members)
           was also insufficiently staffed to perform and document a detailed analysis of the
           appeal issues, including examining the underlying justifications for each of the
           source selection authority-directed adjustments to the MEO. Only one member
           of the review team had any relevant acquisition training and experience and
           another member had limited A-76 training or experience. Even though the
           review team received an extension beyond an initial 30-day period to decide the
           appeal, the review team members admitted that they were under pressure to
           meet the competition milestones. The review team felt that more time was
           needed to decide the appeal.

           Appeal Authority Review. The review team met from September 18 through
           October 20, 2000, to examine the appeal items. Items in the appeal were
           divided among specific team members for review. The team discussed the items
           and assessed the tentative decision. The advisors assisted the team members
           with reviewing the appeal issues. The review team determined that it would not
           review items that the MEO study team and review officers should have caught
           prior to the MEO cost proposal submission. The review team did not look at
           the following: material and supply inflation factors, whether the MEO escalated
           wages for Service Contract Act-type positions, and whether the MEO proposal
           included work above minimum requirements. Team members stated they
           reviewed the ∗ FTE positions added to the MEO by source selection authority
           direction and reviewed the related source selection evaluation team notices to
           ensure the MEO could do the work in the PRD. Team members entertained
           challenges only if based upon facts that were not known to the source selection
           evaluation team and source selection authority at the time. The team believed
           the other challenges to the FTE increases constituted management decisions,
           which were not reviewable. The review team believed that the PRD
           requirement, upon which the source selection evaluation team based an
           adjustment of seven FTE positions for elevator maintenance at Wilford Hall
           Medical Center, was performed by an existing contract. The team concluded
           the source selection evaluation team was not aware of the contract, so the source
           selection authority increase to the MEO was unwarranted. However, team
           members admitted that because of time constraints, they did not review the
           actual contract to determine whether the contract scope applied to the seven FTE
           positions.

           The appeal authority announced on October 24, 2000, that the MEO was the
           winner of the A-76 competition. The review team approved 2 appeal issues,
           partially approved 3 issues, and denied 19 issues. The team did not maintain an
           audit trail for the analysis supporting its conclusions regarding the seven FTE
           positions. An attachment to the October 24 appeal authority decision

∗
    Source selection or contractor proprietary information omitted.

                                                       22
           memorandum documents the rationale for each conclusion for each appeal issue.
           However, documentation on who reviewed each appeal item and when, the
           results of interviews, and similar information was not maintained.

Subsequent Appeal Authority Decision
           L21 protested the selection of the MEO to the General Accounting Office on
           November 6 and 13, 2000. Six allegations were forwarded in the protest. On
           November 8, 2000, the contracting officer concluded in a statement of fact and
           finding that one of the six protested allegations was supported. The appeal
           decision erroneously reduced the MEO by the seven FTE positions for elevator
           maintenance at Wilford Hall Medical Center. The contracting officer statement
           did not address the remaining protest issues.

           AETC Requested External Review. AETC also requested that the Office of
           the Deputy Assistant Secretary of the Air Force (Contracting), the Air Combat
           Command, the Air Force Material Command, the Air Force Reserve Command,
           the Air Force Manpower and Innovation Agency, and the Air Force Space
           Command provide a representative to review all of the protest allegations. After
           conducting an initial review of the contracting officer’s statement of fact and
           finding, the representatives focused their attention on the seven FTE issue. The
           representatives wrote separate memorandums to document their conclusions that
           the appeal authority had mistakenly removed seven FTE positions for Wilford
           Hall Medical Center support on November 17, 2000. The representatives
           concluded that MEO subcontract ∗, would not support the work of the seven
           FTE positions.

           Application of Fee. L21 also protested including 100 percent of its proposed
           target fee in the cost comparison with the MEO. On November 28, 2000, the
           Associate Deputy Assistant Secretary of the Air Force (Contracting) advised
           AETC to reduce the contractor-proposed target fee by 35 percent for inclusion
           in the cost comparison. The Associate Deputy Assistant Secretary made the
           recommendation without an analysis of solicitation provisions and a legal review
           of the position. The recommendation was based on a requirement from
           Air Force Instruction 38-203, that 65 percent of the potential maximum
           incentive or award fee, plus the contract cost of the most advantageous offer to
           the Government be entered on the cost comparison form for contracts with an
           incentive or award fee.

           Contract Fee Requirements. For the base operating support portion of the
           requirement, the solicitation requires offerors to propose total target cost as well
           as a total target fee. The solicitation provided that there was no maximum fee
           and a target fee of zero was unacceptable. The fee would be increased or
           reduced by 50 cents for every dollar over or under the total target costs. The
           contractor’s fee could be reduced further based upon quality performance
           factors. L21 proposed a total incentive target fee of $ * , and AETC included



∗
    Source selection or contractor proprietary information omitted.

                                                       23
           the entire fee in the contractor’s cost on performance in the cost comparison
           form. L21 could receive substantially more fee if it performs quality services at
           less than the target costs.

           Adjustment of Target Fee. The appeal authority directed that only 65 percent
           of the incentive fee should be included in the contractor’s costs stated in the cost
           comparison form, which reduced the contractor’s cost of performance by $ ∗ .
           OMB Circular A-76 Revised Supplemental Handbook states that the incentive
           fee shall be 65 percent of the “potential maximum incentive or award fee,” plus
           the contract costs of the most advantageous offer. We concluded that there was
           no maximum fee provided in the solicitation and it was not possible to
           mathematically quantify the maximum fee17. We believe DoD needs to provide
           guidance on this issue.

Other Fairness Issues
           Alleged Conflict of Interest. The San Antonio Express News article, “Firm’s
           Tie to Base in Question,” December 26, 2000, states that the former Lackland
           AFB vice commander was hired by L21. Union officials alleged to us that the
           Vice Commander was hired because of his knowledge of the PRD requirements
           and the structure of the MEO organization. We found no evidence to
           substantiate the allegation. The vice commander retired from the Air Force at
           the end of 1999 and joined L21 shortly afterwards. The former vice
           commander recused himself from the A-76 competition on May 5, 1999. Prior
           to the recusal, the Vice Commander was a member of the Lackland A-76 study
           steering group and received briefings on the development of the PRD. An
           initial draft of the PRD was completed in late May 1999, about 2 weeks after
           the Vice Commander’s recusal. The fourth draft of the PRD was incorporated
           into solicitation F41689-99-R-0031, which was issued August 9, 1999. All
           A-76 program office and MEO study team personnel interviewed stated that
           they had no contact with the Vice Commander regarding the A-76 competition
           after his recusal. Therefore, there was no indication that he had access to MEO
           study team documentation or the structure of the MEO organization.
           Release of Workforce Appeal to Best-Value Contractor. On about
           October 13, 2000, prior to the appeal authority’s decision, the Air Force
           Principal Deputy Assistant Secretary (Acquisition and Management) verbally
           requested senior AETC managers to release the Lackland workforce appeal to
           L21. The source selection authority advised the Principal Deputy Assistant
           Secretary that, based on current DoD interim guidance, AETC could not release
           the workforce appeal to L21 until the appeals process was completed.
           However, on October 11 and 18, 2000 the AETC contracting officer provided



∗
    Source selection or contractor proprietary information omitted.
17
  Fee would be increased as costs are reduced. Theoretically, performance costs could be reduced almost
indefinitely. However, there would be some point where further reduction in contract costs would result in
fee reductions based upon declining quality. See Appendix C for further discussion of fee scenarios.

                                                       24
           limited workforce appeal information to L21. The contracting officer also
           provided L21 with a redacted copy of the workforce appeal on November 3,
           2000.

           MEO Legal Support. The MEO study team received minimal legal support
           from the Lackland AFB legal advisor assigned to provide support. The advisor
           stated that she had a potential conflict of interest because she also was providing
           support to the Lackland A-76 Steering Committee. The legal advisor further
           stated that she discussed the potential conflict with her Lackland Staff Judge
           Advocate Office supervisor, but that no other attorneys experienced in
           Government contracting were available to advise the MEO. As a result, the
           Lackland legal advisor did not review information requests submitted by the
           MEO to the contracting officer, MEO responses to source selection evaluation
           team notices, or the MEO rebuttal to the source selection authority directed
           changes. In regard to the last item, the legal advisor believed this to be legal
           advocacy, which AETC had directed her not to provide. We believe that, in the
           interest of fairness, the Air Force should have ensured better legal support to the
           MEO study team. We also believe DoD needs to provide general guidance on
           this issue.

Conclusion
           The current cost comparison results for the Lackland public/private competition
           lack credibility. Significant portions of the MEO cost proposal were misstated
           or unsupported. MEO cost proposal overstatements included $ ∗ in personnel
           and related overhead in unsupported source selection authority-directed
           increases; and $ * in material, supply and equipment common costs. In
           addition, the contractor proposal may have been inappropriately adjusted
           downward because of misapplication of the OMB Circular A-76 factor for
           maximum contract award fee.

           The results of the audit are being provided to the Air Force without a
           recommendation on the disposition of the Lackland AFB contract award,
           because we believe it is the responsibility of the Air Force to weigh all relevant
           factors and decide among the various potential courses of action. We are,
           however, making recommendations for systemic improvements to the Air Force
           and DoD A-76 processes, in separate correspondence.




∗
    Source selection or contractor proprietary information omitted.



                                                       25
Appendix A. Audit Process

Scope
    The scope of the Lackland AFB A-76 competition included 19 base operating
    support functions, including airfield support and workload transferred from
    Kelly AFB, Texas. The audit evaluated:

         •   the PRD development process, issuance of the solicitation; and
             development of the Government’s MEO proposal;

         •   the review officer analyses and certifications of the MEO and cost
             comparison;

         •   the source selection process and actions by the contracting officer;

         •   the administrative appeal process and review of contractor protest
             issues;

         •   interaction of AETC and Lackland AFB management with employees
             affected by the competitive sourcing study, and

         •   an alleged conflict of interest involving the Lackland AFB Vice
             Commander.

Methodology
    Documentation Reviewed. We reviewed and analyzed July 1997 through
    April 2001 documentation related to the solicitation including PRD; the MEO,
    L21 and Phoenix Management proposals; the source selection process; the
    independent reviews; the administrative appeal; actions by the contracting
    officer; and the contractor protests. We did not attempt to verify or evaluate
    MEO or contractor costing or technical proposal methodology.

    Use of Computer-Processed Data. The audit relied on computer-processed
    cost comparison data calculated by the OMB Circular A-76 Commercial
    Activities Cost Comparison System software program, known as “compare.”
    This Air Force-developed program was initially released in November 1994 and
    has been the software generally accepted for performing A-76 cost comparison
    studies by all the Military Services as well as Federal agencies. Audits of the
    program by the Army Audit Agency and the Air Force Audit Agency concluded
    that program cost comparison computations adequately document costs in
    accordance with the OMB Circular A-76 Revised Supplemental Handbook
    guidance. Nothing came to our attention as a result of specified procedures that
    caused us to doubt the reliability of the computer-processed data.



                                       26
    Use of Technical Assistance. We received technical assistance from the
    Quantitative Methods Division of the Office of the Assistant Inspector General
    for Auditing in analysis of the application of target fee issue.

    Audit Type, Dates and Standards. We performed this program audit from
    December 2000 through May 2001 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. Accordingly, we included tests of management
    controls considered necessary.

    Contacts During the Audit. We interviewed Air Force employees, officials of
    the American Federation of Government Employees, and support service
    contractor personnel during the audit. Air Force personnel included A-76 study
    management, MEO study team, source selection authority/source selection
    evaluation team, contracting, technical, and legal personnel located at
    Lackland AFB, AETC, and Air Force Headquarters.

    Prior Coverage. No prior audit coverage has been conducted on the subject
    during the last 5 years.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the management controls at AETC and Lackland AFB as it relates
    to A-76 program and competition processes. Specifically, we reviewed AETC
    and Lackland AFB management controls over: PRD development and
    modification, MEO proposal development, independent review of MEO
    proposal, and the administrative appeal reviews. We reviewed management’s
    self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for AETC and Lackland AFB as defined by DoD
    Instruction 5010.40. AETC and Lackland AFB did not develop or maintain
    management controls over A-76 program and competition processes. A copy of
    the report will be provided to the senior official responsible for management
    controls at the Air Force and recommendations to improve the overall Air Force
    A-76 program will be provided by separate correspondence.

    Adequacy of Management’s Self-Evaluation. AETC and Lackland AFB
    officials did not identify management controls over A-76 program and
    competition processes as an assessable unit and, therefore, did not identify the
    material management control weaknesses identified by this audit.


                                        27
     Appendix B. Chronology of Lackland AFB A-76
                 Competition

  26 January 99          Cost Comparison Study Announced

   6 August 99        Final Draft of Performance Requirements
                               Document Completed

    9 August 99        Contracting Officer Issues Solicitation

  May to Nov. 99     Most Efficient Organization Development        •Independent review begins October
                                                                    99
 18 November 99       Independent Review Official Certifies the
                            Most Efficient Organization

 23 November 99        Most Efficient Organization proposal to
                                Contracting Officer

 24 November 99       Contracting Officer Receives Contractor
                                     Proposals

December 99 to      Technical Evaluation of Contractor Proposals    •Source selection authority selects L21
   May 00                                                           best value contractor (19 May 00)
                     Discussions and Source Selection Authority     •Source selection authority directed
   May to July 00       Directed Increases to MEO Staffing           changes (13 July 00)
                                                                    •IRO Recertifies (15 August 00)
   17 August 00     Cost Comparison Performed and Certified by      •Contracting officer announces
                           Independent Review Official              tentative decision for L21

                        Most Efficient Organization Submits
 15 September 00              Administrative Appeal
 18 September to     Appeal Authority Analyzes Most Efficient
    20 October                Organization Appeal

   24 October 00          Appeals Board Renders Decision            •Reversed tentative award to
                                                                    L21
  25 October 00      Contracting Officer Announces Final Cost       •“Award” to Most Efficient
                               Comparison Decision                  Organization

 6 November 00           L21 Files Bid Protest with General
                                Accounting Office

 13 November to        Air Force Reviews L 21 Bid Protest of
  20 November               Appeal Authority Decision

                     Appeal Authority Panel Provides Written
   8 December 00    Reversal of Decision to Contracting Officer


  13 December 00            AETC Announces Reversal                •Decision in favor of L21



                                                         28
           Appendix C. Analysis of Disputed Costing
                       Items
           Issues Reviewed. We examined a total of eight costing issues in the
           September 15, 2000, appeal by the affected Government workforce and the
           November 6, 2000, contractor bid protest, and validated $∗ of the $ * in claimed
           adjustments. We analyzed solicitation documentation; and MEO, L21, and
           Phoenix Management proposal documentation. We also reviewed the source
           selection evaluation team, appeal review team, and contracting office
           documentation related to the issues. We did not attempt to verify or evaluate
           the MEO or contractor costing or technical proposal methodology. The results
           of our analysis are presented in Table 1.

                              Table 1. Summary of Disputed Costing Issues

                                                                         Appeal              Amount
                                                        Amount          Authority         Substantiated
                                Disputed               Disputed        Adjustment         By IG, DoD
       Source                  Costing Issue         (in millions)    (in millions)       (in millions)

Workforce            Common costs in MEO                $6.15              $*                  $*
appeal               proposal(a)
                                                                                                 *
Workforce            MEO personnel cost                     1.88         None
appeal               escalation(a)
                                                                 *
Workforce            Material and supplies in                            None                 None
appeal               MEO proposal(a)
                      * (b)                                      *                              (c)
L21 protest                                                              None
                      * (b)                                      *
L21 protest                                                              None                 None
                                                            (d)            (d)                  (d)
Workforce            Verification of nine
appeal               contractor proposal
                     costing areas
Workforce            Application of contract             9.50            None                 None
appeal               incentive fee(e)
                                                             *              *                         (g)
L21 protest          Application of contract                                              Unknown
                                  (f
                     incentive fee )
Total                                                   $*                 $*                  $*
(a)
    Amount claimed as decrease to MEO proposed costs.
(b)
    Amount claimed as increase to MEO proposed costs.
(c)
    Air Force needs to resolve.
(d)
    No amount of contractor costs was specified in the workforce appeal. The appeal authority stated that
all nine areas were verified. We were able to verify only 4 of the 9 areas.
(e)
    Amount claimed as increase to contractor costs entered on cost comparison form line 9.
(f)
    Amount claimed as decrease to contractor costs entered on cost comparison form line 9.
(g)
    Subject to adjustment pursuant to DoD guidance




∗
    Source selection or contractor proprietary information omitted.

                                                       29
Common Costs in MEO Proposal
           Background. On the August 17, 2000, when the MEO cost proposal was
           opened, neither the AETC A-76 program office, the review officers, nor the
           contracting officer could determine precisely what common costs the MEO had
           included in its cost proposal. The contracting officer did not adjust the MEO
           proposal because of uncertainty about which MEO proposal costs corresponded
           with the “plugged number” contract line items. The MEO study team had
           included amounts from “plugged” line items because of the evaluation criteria in
           the Solicitation, section M. The solicitation specified that the “total proposal
           price” of the contractors would be “compared to the MEO’s total bid for all
           services.” With the AETC contracting officer having deleted the “plugged” line
           items from the contractors’ costs, the remaining MEO proposed common costs
           should also have been deleted.

           MEO Common Costs. The affected Government workforce appeal claimed
           $6.15 million in materiel, supply, and MEO subcontract costs as common costs
           that should be removed. The appeal authority approved $ * for removal from
           the cost comparison. Our review concluded that approximately $ ∗ of the
           claimed costs were related to the “plugged” contract line items. Table 2
           summarizes common costs by contract line item.


                                Table 2. Review of Appealed Common Costs

                                                                            Appeal       Amount
                                                            Amount         Authority   Substantiated
                 Contract Line Item Number                  Appealed      Adjustment   by IG, DoD

            0004 – Civil engineering projects                $ 275,000      None          None
            between $100,000 and $500,000
            0005 – Information technology                    3,513,519       $*             $*
            refreshment
            0006 – Government-directed travel                  216,750     28,000         28,000
                                                                              *              *
            0008 – Replacement of                            1,922,716
            Government-furnished base
            operations support equipment
            0009 – Replacement of                               225,500     None          None
            Government-furnished information
            technology equipment
            Total                                           $6,153,485       $*             $*

                   Civil Engineering Projects Between $100,00 and $500,000. Contract
           line item 0004 (and corresponding line items for each contract period) provided
           an estimated total price of $12.9 million for project performance over $100,000
           but under $500,000. The appeal claimed that the MEO overlooked $275,000
           included in its proposed subcontract work that mistakenly involved projects over

∗
    Source selection or contractor proprietary information omitted.

                                                       30
           $100,000 but under $500,000. The appeal amount was based on 5 percent of
           the amount estimated for all subcontracts. The review team denied the claim
           because this error or omission should have been considered and corrected prior
           to MEO proposal submission. The review team opined that an omission would
           occur when an item that should have been proposed was left out because of an
           incorrect assumption based on a reasonable good faith belief; or an error
           occurred when there was a obvious mistake (for example, a mathematical
           miscalculation). We could not substantiate the claim because the MEO study
           team was not responsive to our request for supporting documentation.

                   Information Technology Refreshment. Contract line item 0005 (and
           corresponding line items in each contract performance period) provided that
           information technology refreshment would be made on a cost reimbursable
           basis. The line items provided an estimated total price for information
           technology refreshment in the amount of $12 million. The appeal stated the
           MEO proposal included $3.51 million of common cost for information
           technology refreshment. Information technology refreshment was not defined in
           the solicitation. However, the PRD provided that software refreshment would
           occur 1 year after the latest release of software. The contracting officer’s
           response to information request 309 defined information technology refreshment
           as preventative maintenance for an existing system18. The contracting officer
           and the AETC price analyst stated that all information technology maintenance
           and equipment costs borne by the service provider were covered by contract line
           item numbers 0005 and 0009. The appeal claimed the MEO proposal contained
           $298,700 for three software licensing fees, $1.4 million for repair and upgrade
           of servers in the MEO Operations Services Division, and $1.81 million in
           service contracts for information technology refreshment to support the MEO
           Business Services Division. The MEO proposal included $ * . We concluded
           that the * was within the scope of the contracting officer’s definition of an
           information technology common cost. We do not agree with the appeal
           authority’s disapproval of this amount.

           The PRD identified the information technology service contracts as bridging
           contracts. Since the PRD allowed the MEO and contractor the option to
           contract out or perform the work included in the bridging contracts in-house, we
           believe that the claimed $1.81 million MEO proposal cost was not a common
           cost and agree with the appeal authority.

           The review team approved an adjustment of $ * for two of the three licensing
           fees and rejected the remainder. The review team properly determined that a
           claimed software licensing fee contract * and did not constitute information
           refreshment. Similarly, maintenance service contracts were excluded.

                   Government-Directed Travel. The appeal states that all MEO proposed
           travel costs should be considered Government-directed to meet the requirements
           of the PRD. The MEO proposal includes $ * for travel to the Pentagon, * . The
           review team approved a $28,000 adjustment identified as Pentagon travel that
           was Government-directed. We determined that the solicitation contract line
           item 0006 (and corresponding line items in each contract performance period)

18
     Our review concluded preventative maintenance was subject to varying interpretation.
∗
    Source selection or contractor proprietary information omitted.

                                                       31
           included not-to-exceed amounts totaling $960,000 for Government-directed
           travel during the performance period, and that the PRD and the contracting
           officer response to information request 222, did not define common cost travel,
           or identify which travel qualified as Government-directed. ∗ . We believe that
           the appeal authority-approved amount should be treated as a common cost.

                   Replacement of Government-Furnished Base Operations Support
           Equipment. Contract line item 0008 (and corresponding line items in each
           contract performance period) provided that the Government would reimburse the
           contractor for its costs for replacing such equipment. The line item sequence
           established a plugged price of $9 million for the equipment. The appeal claimed
           the MEO proposal included $1.92 million for replacement of Government-
           furnished equipment, including $1.32 million for the Maintenance Division,
           $1,650 for the Business Division, and $599,500 for the Human Services
           Division. The appeal authority approved amounts for the Business and Human
           Services Divisions, and we agree with the approval rationale. The MEO study
           team also asserted that 10 percent of the material and supply costs for the
           Maintenance Division was for Government-furnished equipment replacement.
           Since the MEO proposal did not identify the portion attributable to equipment
           replacement and the MEO study team could not provide documentation to
           support the 10 percent estimate, we also agree with the appeal authority’s
           disapproval of the amount claimed for the Maintenance Division.

                   Replacement of Government-Furnished Information Technology
           Equipment. Contract line item 0009 (and corresponding line items in each
           contract performance period) provides Government reimbursement to the
           contractor for replacing such equipment. The line item sequence established a
           plugged price of $6 million for the equipment. The appeal stated that $225,500
           of the $ * proposed * costs for the MEO Human Services Division was for
           replacement of Government-furnished information technology equipment. The
           MEO study team stated that the amount included $ * for * required for the
           performance period. The review team denied the MEOs proposal to * . The
           MEO proposal did not breakdown the $ * , and the MEO study team could not
           provide documentation to support that information technology equipment was
           included in the proposal amount. Thus, we agree with the appeal authority’s
           disapproval of the amount.

Other Cost Items
           MEO Personnel Cost Escalation. The appeal claimed that the MEO cost
           proposal included $1.88 million in escalation costs for * FTE positions covered
           by Service Contract Act provisions which were not subject to escalation. The
           appeal authority denied the request stating that the MEO team had previous
           opportunities to make the adjustment. The MEO team stated they were not
           aware of the overstatement until the bid was reviewed prior to the appeal
           submission. Our analysis determined that ∗ of the * FTE positions were covered
           by the Service Contract Act provisions and * should not have been included in
           the escalation. We do not agree with the appeal authority’s disapproval. We
           could not validate the remaining amount.

∗
    Source selection or contractor proprietary information omitted.


                                                       32
           MEO Material and Supply Costs. The appeal states that $ * should be
           removed for four unrelated MEO proposal items. This amount includes
           $1.25 million for * material and supplies, $82,500 for asbestos * , * for hoist and
           crane maintenance, and $40,000 for energy management. For * material and
           supplies, the solicitation states that the Government will provide an initial
           inventory at performance start, but does not estimate the amount of the initial
           supply inventory. The service provider is responsible for inventory
           replacement. * . The MEO study team states that the appeal claim was based
           on an expectation that the Government–furnished material and supplies * . We
           could not determine whether the supplies and materials offered would be
           sufficient for * . We agree with the appeal authority’s disapproval of the $1.25
           million.

           For the $82,500 claimed for asbestos * , we determined that the PRD requires
           the service provider to perform asbestos inspection and spot verification duties
           and to monitor asbestos abatement and disposal work performed by others. The
           contracting officer response to information request 446 indicated that asbestos
           abatement and asbestos disposal were not a PRD requirement. The MEO
           proposal included a $15,000 per year asbestos related service contract that the
           MEO study team states was for asbestos * . We could not validate that the
           service contract was for * services. We agree with the appeal authority’s
           disapproval of the amount.

           The appeal states that hoist and crane maintenance, and energy management
           functions were performed by service contracts that would render the required
           services prior to the start of the basic MEO performance period. The appeal
           authority denied the appeal, stating that the MEO study team had the
           opportunity to correct the cost proposal prior to submission. We could not
           validate the claimed costs for the hoist and crane maintenance and energy
           management, and for this reason, agree with the appeal authority’s disapproval
           of the amount.

           MEO Material and Supply Cost Escalation. The L21 protest claimed that the
           MEO team failed to escalate material and supply costs by $ * million during the
           performance period. We verified that the solicitation did not include an
           economic price adjustment clause. The MEO cost proposal for material and
           supplies was escalated for the base period, but did not include material
           escalation for the remaining performance periods. The contracting officer and
           price analyst stated that * . We believe the Air Force should take appropriate
           action to resolve this issue.

           Vehicle Replacement Costs. The L21 protest states that the MEO did not
           include vehicle replacement costs. * . The solicitation requires Government-
           furnished vehicle replacement at contractor expense. Solicitation amendment 16
           increased Government-furnished vehicles from 421 to 479. The source selection
           evaluation team reviewed the MEO vehicle proposal and did not take issue with
           the final MEO vehicle estimate. The source selection evaluation team
           documentation includes * evaluation notices and MEO responses relating to the
           number and usage of proposed vehicles. The MEO study team evaluation notice
           responses state that * because solicitation amendment 16 increases the number of


*
    Source selection or contractor proprietary information omitted.

                                                       33
           Government-furnished vehicles* . We believe the MEO vehicle proposal is
           sufficient based on the source selection evaluation team technical analysis.

           Verification of Contractor Proposal Costs. The appeal requested validation of
           nine contractor costing areas. The appeal authority denied the claim stating the
           review team verified the contractor cost areas. In response to our questions, the
           review team chief was unable to provide documentation (audit trail) supporting
           the verification of the nine areas. The review team chief states that he did not
           have time to examine the nine areas and had to obtain assistance from the AETC
           price analyst and source selection evaluation team personnel. In response to our
           request for verification, the contracting officer and price analyst verified that the
           contractor’s proposal contained costs for four of the nine areas. For the five
           unverified areas, the AETC contracting officer and price analyst stated that it
           was ∗ . We could not determine a cost impact for the five unverified cost areas
           because * to verify cost components. Table 3 summarizes the nine validation
           areas.

                Table 3. Review of Appeal for Validation of Contractor Proposed Work

                                                                 Costing Area        Costing Area
                                                                  Verified by         Verified by
           Contractor Costing Areas in Appeal                   Appeal Authority   Contracting Officer

            *                                                         Yes**               Yes
            *                                                         Yes**               No
            *                                                         Yes**               Yes
            *                                                         Yes**               Yes
            *                                                         Yes**               No
            *                                                         Yes**               No
            *                                                         Yes**               No
            *                                                         Yes**               No
            *                                                         Yes**               Yes

           *Source selection or contractor proprietary information omitted.
           **No audit trail to support verification

           We do not believe verification of contractor proposal costs is a matter that can
           be appealed under A-76 procedures. The adequacy of a contractor's proposal
           and whether it includes all costs to perform the PRD are matters to be resolved
           during the evaluation of contractor proposals. We believe the Air Force should
           reexamine the five costing areas to determine whether any adjustments are
           warranted, should the Air Force decide to amend the solicitation and seek
           revised proposals from offerors.

           Application of Contract Incentive Fee. The affected Government workforce
           appeal requests an upward adjustment of $9.5 million for contractor costs
           entered on line 9 of the cost comparison form. The appeal amount was based on
           a cost scenario, which applied 65 percent of an estimated maximum incentive
           fee, assuming a 20 percent contractor under run. The appeal also took issue

∗
    Source selection or contractor proprietary information omitted.

                                                       34
           with the fact that no maximum fee existed. The review team denied the appeal
           upholding the initial determination of the contracting officer to apply a fee
           representing 100 percent of the target fee without consideration of a potential
           under or over run. The review team noted that no over or under run precedence
           existed at AETC for a cost-plus-incentive fee contract and that the target cost
           was the AETC best estimate of contractor performance. The L21 bid protest
           claimed that the appeal authority was correct in denying the workforce appeal,
           but should apply a 35 percent reduction to the target fee, which the contractor
           claimed was the actual maximum incentive fee. Thus, L21 claimed its cost
           comparison form line 9 cost were overstated by $ * . On December 13, 2000,
           the appeal authority agreed with the L21 bid protest. The appeal authority
           directed that only 65 percent of the incentive fee should be included in the
           contractor's costs stated in the cost comparison, which resulted in the $ *
           reduction. Basing the incentive fee for cost comparison purposes solely at
           65 percent of the target fee without determining the maximum fee, however,
           does not fully comport with A-76 guidance.

           One alternative might be to adjust the contractor’s cost of performance on the
           cost comparison form to reflect the cost the Government would incur if the
           contractor earns the 65 percent incentive fee. This can result in unpredictable
           results. ∗ 19. This alternative does not comport with A-76 guidance as the
           Circular does not specifically authorize making adjustments to the contractor's
           price based upon the incentive fee to be included in the cost comparison.

           The contracting officer originally included the full incentive fee in the cost
           comparison after concluding L21 would earn the target fee based upon its past
           performance history. According to the contracting officer, application of quality
           assurance factors on past contracts had resulted in about a 10 percent reduction
           in the actual fee after cost/savings sharing. If the contractor would incur a
           10 percent reduction for quality assurance factors, then the likely fee assuming
           L21 achieves the target fee based upon cost savings, would be $ * . Based on
           the above, the fee applied by the appeal authority may have understated likely
           contractor cost on the cost comparison form by $ * . This alternative, however,
           does not take into account the A-76 guidance that the incentive fee must be
           based upon 65 percent of the maximum potential fee.
           As none of these alternatives described above, to include the Air Force’s
           mechanical application of 65 percent without a determination of the maximum
           potential fee, fully comports with the A-76 guidance, we believe DoD needs to
           provide guidance on this issue based upon 65 percent of the maximum potential
           fee based upon 65 percent of the maximum potential fee.




∗
    Source selection or contractor proprietary information omitted.
19
  The example assumes that the contractor would receive no reduction for quality in the quality analysis
portion of the fee calculation after determination of the incentive fee applied after cost sharing. If it is
assumed that a 10 percent reduction of fee for quality was applied after cost sharing, a 65 percent target fee
would be achieved if the contractor over ran target cost by $ [source selection information omitted] with the
contractor sharing half the cost and the Government incurring the remainder ($ [source selection
information omitted]).

                                                       35
Appendix D. Analysis of Directed Increase to
            Most Efficient Organization
           Source Selection Authority-Directed Increase. On July 13, 2000, the source
           selection authority directed an increase of ∗ FTE positions to the MEO to
           perform the PRD requirements. The increases affected * functional areas. The
           affected Government employees appealed * FTE positions added in * functional
           areas.

           Inspector General, DoD, Review of Appealed Increases. We concluded that
           adequate justification does not exist for * of the * FTE positions in the appeal.
           The * FTE positions increased the MEO proposal by about $ * . We analyzed
           portions of the solicitation, the PRD; MEO, L21 and Phoenix Management
           proposals; and the source selection evaluation team, review team, and the
           contracting office documentation related to the functional areas. Table 4
           summarizes the results of our review.




∗
    Source selection or contractor proprietary information omitted.

                                                       36
                    Table 4. Analysis of Appealed FTE Positions in MEO
                                                     FTE Positions
                                        FTE           Unsupported        Inspector General, DoD,
         Functional Area              Appealed       per IG, DoD         Rationale for Conclusion
Manpower and training                         *            0.00           Increase based on supported
                                                                                               analysis
Flight records *                              *            0.00           Increase based on supported
                                                                                               analysis
Tuition assistance                            *             *            Increase above historical data
Maintenance, hospital                     *                0.00              Increase to historical data
                                            **
Maintenance, general                          *             *            Increase to historical data for
                                                                                       another element
Maintenance, military family                  *             *                  Housing reductions not
housing                                                                considered; disparate treatment
                                                                                           of proposals
Maintenance, roads and                        *            0.00              Increase to historical data
grounds
Warehouse and distribution                    *             *                    PRD had no baseline
Project design and                            *             *         Source selection evaluation team
construction                                                                 could not justify increase
Network *                                     *             *           Increase above historical data
Comprehensive base planning                   *             *            Increase above historical data
Total FTE positions                           *             *

Estimated (decrease) to MEO        ($ *)          ($ *)***
proposal (in millions)
Notes:
*Source selection or contractor proprietary information omitted.
**The appeal authority partially sustained the appeal for hospital maintenance and removed
 7 FTE positions and later reversed the removal.
***Based on average FTE cost of $288,978 per position (including OMB Circular A-76
    overhead of 12 percent).


          Manpower and Training. The source selection authority directed that the
          MEO staffing for this function be increased from ∗ FTE positions because the
          MEO study team had “failed to justify how they will successfully utilize * to
          accomplish manpower and training responsibilities as prescribed in their
          proposal.” We determined that the PRD includes no baseline for training
          requirements. The source selection evaluation team issued * evaluation notices
          for the MEO * program and * evaluation notice for the MEO * program. The
          MEO study team provided a detailed response regarding the * program but was
          not specific in responses to the * . The source selection evaluation team


∗
    Source selection or contractor proprietary information omitted.

                                                      37
           supported the recommended increase in its evaluation notice and assessment file.
           We concluded that the source selection authority-directed increase of * was
           supported.

           Flight Records * . The source selection authority directed that the MEO
           staffing be increased from * to ∗ FTE positions because the MEO calculations
           were inconsistent with Air Force Instruction 11-401 and workload data for
           verifying over 1,200 flight records. The PRD contained flight record workload
           data but did not include historical hours to perform the function. The source
           selection evaluation team believed that the MEO did not have adequate
           manpower to perform the PRD duties and made numerous evaluation notice
           requests relating to the function. We do not take exception to the directed
           increase.

           Tuition Assistance. The MEO originally included * FTE positions for the
           tuition assistance function. The source selection authority directed an increase
           of an additional * FTE positions because “The offeror reduced man-hours
           provided in the PRD for tuition assistance informal/formal contacts, based on
           information from their functional experts, neglecting the data provided in the
           PRD.” The source selection evaluation team based its calculation on an average
           of * hours rather than 8,592 hours for formal and informal tuition assistance
           customer contacts. The historical workload data in the PRD contains hourly
           totals for FY 1997, FY 1998 and the first quarter of FY 1999 which, when
           averaged, totaled 8,592 hours. * . We concluded that part of the source
           selection evaluation team-directed increase ( * FTE positions) was unsupported
           because it exceeded requirements based on the average PRD historical workload
           data for FYs 1997 through 1999.

           Hospital Maintenance. The source selection authority directed an additional
           *
            FTE position increase in MEO staffing because the MEO study team did not
           use the personnel hour calculations identified in the PRD. We do not take
           exception to the directed increase because:

                    •    The increase was based on historical data and traceable to the PRD;

                    •    The source selection evaluation team calculation of the PRD and
                         directed change estimates were kept in the source selection evaluation
                         team assessment file.

                    •    The source selection evaluation team asked the MEO team to provide
                         support for its estimate during the second and third rounds of
                         evaluation notices and the MEO team did not provide clear responses
                         to the source selection evaluation team questions.

                    •    The MEO study team stated that it would subcontract all proposed
                         hospital maintenance work over * hours (a total of approximately *
                         hours), but we could not trace the offloaded work to the list of MEO
                         proposed subcontracts.

           General Maintenance. The source selection authority added * FTE positions to
           the MEO for general and military family housing maintenance because “Man-

∗
    Source selection or contractor proprietary information omitted.

                                                       38
           hour calculations identified in the PRD were not used in justifying their
           manning.” The MEO study team apportioned ∗ of the additional * FTE positions
           to the general maintenance group. We agree with the MEO study team
           apportionment. We identified in the PRD historical hours used for the source
           selection authority-directed increase, * FTE positions attributable to * function.
           The * FTE positions should not have been added to the general maintenance
           group, as the MEO * function. Since the source selection evaluation team took
           no exception to the staffing * , we concluded that the * FTE portion of the
           directed increase was unsupported.

           We also concluded that an additional undetermined amount of historical hours
           not appropriate to the general maintenance group might also have been included
           in the directed increase. Historical workload for * maintenance was imbedded in
           the same PRD hours even though the MEO organization * maintenance. Since
           the source selection evaluation team took no exception to the staffing of the *
           group, we concluded that a portion of the directed increase was unsupported,
           but we could not determine the amount of * workload that was unsupported.

           Military Family Housing Maintenance. The MEO apportioned * of the source
           selection authority directed * FTE position increase, to military family housing
           maintenance as based on identified historical hours. The PRD workload data of
           50,790 hours was based on 720 housing units. Information request response 6
           clearly states that housing units subject to maintenance would decrease to
           448 units for initial contract performance because of privatization and
           demolition20. The MEO stated that its initial military family housing
           maintenance proposal of * FTE positions was based on a * unit requirement. * .
           *
              . The information request response, and representations made during site
           visits clearly indicate a significant decrease in the number of housing units to be
           maintained prior to the completion of the A-76 competition at Lackland21. The
           source selection evaluation team review of the MEO proposal did not include a
           review of pertinent information requests. Further, the source selection
           evaluation team issued no evaluation notices to the MEO study team * pertaining
           specifically to military family housing maintenance or requirements * . We
           concluded the source selection authority directed increase was overstated by
           *
             FTE positions.
           Roads and Grounds Maintenance. The justification for the source selection
           authority-directed adjustment stated: “FTEs in this (roads and grounds
           maintenance) division are not justified. Man-hour calculations identified in the
           PRD were not used in justifying their manning. Increase FTEs in the following
           areas: Roads and Grounds additional * FTEs.” The MEO study team stated
           that its proposal was efficient and required fewer FTE positions than the existing

∗
    Source selection or contractor proprietary information omitted.
20
  Offerors had been advised during site visits of the Air Force’s housing privatization initiatives.
Information request 6 stated that 321 new privatized homes were under construction at Lackland AFB and
that 272 homes at the Lackland South Wherry development would be demolished in spring 2000 and
replaced with 99 privatized units by spring 2001. Another 124 homes were to be privatized at the Lackland
Capehart development in 2002.
21
  Lackland AFB housing personnel involved in the PRD development agreed that the PRD should have
reflected a decreased number of housing units.

                                                       39
           structure. In a series of evaluation notices, the source selection evaluation team
           asked the MEO team for numerous clarifications and discussions so that the
           source selection evaluation team could fully comprehend how roads and grounds
           performance requirements could be achieved with less manpower than
           historically used. According to source selection evaluation team personnel,
           MEO team officials did not credibly show where, or document how, it could
           structure such efficiencies into the MEO. Consequently, the source selection
           authority directed the MEO team to bid to historical workload requirements.
           The directed increase was based on historical data and traceable to the PRD.
           The source selection evaluation team also kept its calculation of the required
           adjustment in the source selection evaluation team assessment file. We do not
           take exception to the directed increase because the MEO team did not bid to the
           historical workload data in the PRD.

           Warehouse and Distribution. The justification for the source selection
           authority-directed adjustment states:
                     *
                      are insufficient manning to support AIA (Air Intelligence
                    Agency), Lackland, and Kelly repair cycle, FAST (forward assets
                    warehouse), Awaiting Parts, and Time compliance Technical
                    Orders functions as identified in the PRD, more specifically,
                    repair cycle requirements…To successfully accomplish the
                    workload as identified by the PRD requires an additional * ,
                    bringing the total number of FTEs for this area to * .

           The MEO study team proposed manning based upon * applied to historical repair
           line items requirements. The source selection evaluation team did not take
           exception * . Source selection evaluation team evaluators agreed on the need for
           the directed increase but lacked consensus on whether the MEO structure should
           be * or * FTE positions. The primary source selection evaluation team evaluator
           stated that the PRD was vague and did not specify cycle time per item or
           historical work hours. He based the recommendation for the * FTE directed
           increase on prior experience. The source selection evaluation team issued *
           evaluation notices to the MEO study team on this area. The review team found
           no factual error with the source selection authority decision to direct the MEO
           to add the * FTE positions and stated the MEO did not show how the work
           would be completed with only * FTE positions. We concluded the source
           selection authority increase of the * FTE addition was not adequately supported
           by the one source selection evaluation team evaluator and that documentation on
           the * FTE was not traceable to the PRD workload data.

           Project Design and Construction. The justification for the source selection
           authority-directed adjustment states that:

                    The offeror’s attempt at explaining how they will use innovations
                    to reduce engineering oversight and the impact this had on their
                    manpower calculations for the entire design and construction
                    branch are inadequate. In the process of trying to justify how
                    their manpower calculations support their assertion regarding
                    reduced engineering oversight, they reduced/adjusted their
                    manpower calculations for project design/acquisition without

∗
    Source selection or contractor proprietary information omitted.

                                                       40
                    providing rationale for this change. For instance, in the last
                    proposal amendment, the offeror changed the number of projects
                    worked for engineers from * to * , without providing adequate
                    justification as to why this reduction was made. Using the
                    workload data provided in the PRD, which shows an average of
                    60 projects per year (for projects between $100,000 and
                    $500,000), the offerors proposal needs to be increased by
                    7.5 FTEs in this area.

           Contract line item 0004 (and corresponding line items for each contract period)
           provided an estimated total price of $12.9 million22 for performance of projects
           over $100,000 but under $500,000. The PRD furnished historical workload
           tables for FYs 1996 through 1998 for Lackland and Kelly AFB design and
           construction projects. The tables show a complexity index for each of the
           projects but did not specify the total number of yearly projects. The source
           selection evaluation team estimated workload level of 60 projects was not
           documented in source selection evaluation team files. (We estimated the PRD
           workload at 63.7 projects per year.) The MEO proposed a design and
           construction group to design and monitor all projects, regardless of size. The
           MEO proposed * FTE positions in the group, including * . The source selection
           evaluation team was concerned about the adequacy of construction management
           and design and issued a number of evaluation notices asking for an explanation
           of how the MEO proposed to perform the construction management and design.
           However, no source selection evaluation team evaluation notice addressed MEO
           study team project baseline estimates23. The source selection evaluation team
           did not perform a calculation of the number of projects an engineer could
           handle. The source selection evaluation team evaluator stated to us that an
           engineering FTE position could cover * projects, but retracted the statement
           when it was pointed out that such a standard would mean the allocated MEO
           staffing would justify a 60 project per year baseline. The source selection
           evaluation team evaluator was satisfied that the MEO could perform if the
           number of FTE positions was simply * . The source selection evaluation team
           calculation of its directed change recommendation was not documented. We
           concluded that the source selection authority increase of * FTE positions was
           unsupported. However, as there was no independent determination of the
           number of projects an engineer could handle, we are unable to determine
           whether the MEO’s staffing is adequate.

           Network * . The justification for the source selection authority-directed
           adjustment for the communication and information technology network *
           function stated that:



∗
    Source selection or contractor proprietary information omitted.
22
  Amount noted per solicitation amendment 13. The initial line item number 0004 sequence limited
estimated funding to $19,876,000.
23
  The MEO study team stated that while they relied on the contract line item limitation, they performed a
highly detailed calculation method to reach the initial [source selection information omitted] project
estimate and the revised [source selection information omitted] project estimate. We did not validate the
method.

                                                       41
                    The workload data captures approximately 70% of the trouble
                    calls and work orders generated on Lackland. It doesn’t capture
                    the entire workload for Lackland and Kelly. Adding in another
                    30% for the underrepresented Lackland workload plus another
                    20% for the addition of Kelly workload…. Increase the total FTEs
                    in this area by ∗ .
           The appeal challenged * FTE positions added by the source selection authority.
           The source selection evaluation team performed no written analysis to support
           the amount of workload data used in the directed change. No modification to
           the PRD was made to reflect the directed workload increase. Our review of
           information request responses relating to communication and information
           technology issues indicated no clarification of the PRD workload data. The
           source selection evaluation team evaluator agreed that the directed increases
           were above the stated PRD requirements but believed that the PRD was
           incomplete. Cost comparisons must be based upon the PRD that establishes the
           same scope of work and performance requirements for the MEO and
           contractors. We concluded that the * FTE positions were not adequately
           supported and was not part of the PRD workload level.

           Comprehensive Base Planning. The justification for the source selection
           authority adjustment stated, “The offeror failed to include in their workload
           calculations the services listed in PRD paragraphs 8.3.2.5 through 8.3.2.11.
           Increase FTEs in this area by * .” The PRD did not include workload data for
           the requirement. The source selection evaluation team believed that the MEO
           did not have adequate manpower to perform the stated PRD duties but had sent
           no evaluation notice relating to the functions referenced in the directed
           increased. In addition, the source selection evaluation team had no analysis
           prepared to support * at the time of the recommended increase. The source
           selection evaluation team evaluator stated to us that PRD sections 8.3.2.5
           through 8.3.2.7 of the “missing” workload were located in another section of
           the MEO proposal after the directed increase occurred. However, the source
           selection evaluation team did not request the source selection authority to revise
           the directed increase. We concluded that the source selection authority directed
           increase of * was unsupported.




∗
    Source selection or contractor proprietary information omitted.




                                                       42
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Acquisition, Technology, and Logistics)
  Deputy Under Secretary of Defense (Installations)

Department of the Air Force
Secretary of the Air Force
   Assistant Secretary of the Air Force (Financial Management and Comptroller)
   Auditor General, Department of the Air Force*

Non-Defense Federal Organizations and Individuals
Office of Management and Budget*

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations*
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations*
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and Intergovernmental
  Relations, Committee on Government Reform*
House Subcommittee on Technology and Procurement Policy, Committee on Government
  Reform*
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform*
Senator Phil Gramm*
Senator Kay Bailey Hutchinson*
Representative Henry Bonilla*
Representative Lamar S. Smith*
Representative Charles A. Gonzalez*
Representative Ciro D. Rodriguez*

*Copies with contractor proprietary and procurement sensitive data redacted.




                                               43
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report, are listed below.

Paul J. Granetto
Garold E. Stephenson
Benjamin A. Mehlman
Harvey I. Gates
Arsenio M. Sebastian
Robert E. Bender
Donna L. Starcher
Tracy L. Simmons
Andrew D. Greene
Lynne M. Thomas
Kimberly Haines
Frank C. Sonsini
